<html>
<title> - NOMINATION OF CARL J. ARTMAN</title>
<body><pre>[Senate Hearing 110-8]
[From the U.S. Government Printing Office]



                                                          S. Hrg. 110-8

                      NOMINATION OF CARL J. ARTMAN

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

 THE NOMINATION OF CARL J. ARTMAN TO BE ASSISTANT SECRETARY OF INDIAN 
                  AFFAIRS, DEPARTMENT OF THE INTERIOR

                               __________

                            FEBRUARY 1, 2007
                             WASHINGTON, DC













                    U.S. GOVERNMENT PRINTING OFFICE

32-999 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001
























                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman

                  CRAIG THOMAS, Wyoming Vice Chairman

DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            PETE V. DOMENICI, New Mexico
DANIEL K. AKAKA, Hawaii              GORDON SMITH, Oregon
TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARIA CANTWELL, Washington           RICHARD BURR, North Carolina
CLAIRE McCASKILL, Missouri           TOM COBURN, M.D., Oklahoma
JON TESTER, Montana

                Sara G. Garland, Majority Staff Director
              David A. Mullon Jr. Minority Staff Director

                                  (ii)











                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Artman, Carl J., nominee to be assistant secretary, Indian 
      Affairs, Department of the Interior, Washington, DC........     7
    Cantwell, Maria, U.S. Senator from Washington................    13
    Danforth, Gerald L., chairman, Oneida Tribe of Indians of 
      Wisconsin..................................................     2
    Dorgan, Byron L., U.S. Senator from North Dakota, chairman, 
      Committee on Indian Affairs................................     1
    Gollnick, William, chief of staff, Oneida Tribe of Indians of 
      Wisconsin..................................................     2
    Johnson, Jacqueline, executive director, National Congress of 
      American Indians...........................................     4
    Thomas, Hon. Craig, U.S. Senator from Wyoming, vice chairman, 
      Committee on Indian Affairs................................     2

                                Appendix

Prepared statements:
    Artman, Carl J. (with attachment)............................    15
    Danforth, Gerald L...........................................   167
    Johnson, Jacqueline (with attachment)........................   167

Note: Other material submitted for the record are retained in 
  committee files.


















 
                      NOMINATION OF CARL J. ARTMAN

                              ----------                              


                       THURSDAY, FEBRUARY 1, 2007


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
485, Senate Russell Office Building, Hon. Byron L. Dorgan 
(chairman of the committee) presiding.
    Present: Senators Dorgan, Thomas, Inouye, Tester, and 
Cantwell

  STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR FROM NORTH 
         DAKOTA, CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. We will call the hearing to order today.
    Today we are receiving testimony on the President's 
nomination of Carl Artman to be Assistant Secretary for Indian 
Affairs at the Department of the Interior. In addition to Mr. 
Artman, statements will be made by Chairman Danforth of the 
Oneida Tribe of Wisconsin, in which Mr. Artman is a member, and 
by Jacqueline Johnson, executive director of the National 
Congress of American Indians.
    Last September, our committee held a hearing on Mr. 
Artman's nomination. We moved quickly to approve the nomination 
and move it to the floor of the Senate. There was a hold put on 
it in the Senate, and the nomination did not get completed. The 
President has resubmitted the nomination. I decided to hold an 
early hearing. It is my intention to report the nomination out 
today with the consent of the Vice Chairman and the other 
committee members. Then it is my intent next week to work very 
hard to try to move this nomination. I talked to the Secretary 
of the Interior yesterday. If we need to get some help from the 
President, we need to do that.
    It is shameful to me that starting tomorrow, the month of 
February, it will be 2 full years that the Assistant Secretary 
for Indian Affairs position has been open and unfilled. That is 
unbelievable, given the challenges we face. Whatever the 
reasons for it, it has to change. This has to stop. We have a 
nominee that I believe is qualified, well qualified, I have 
supported this nominee. I will do so again this morning.
    If there are problems here in the Congress as we move this 
to the floor, my hope is that myself, the vice chairman, the 
Secretary of the Interior and the President can figure out 
where those problems exist, resolve them and move this 
nomination. It is long past the time that the assistant 
secretary position be filled. As I said, we have significant 
challenges. I use the word crisis to describe what we are 
confronted with in Indian health care and housing and other 
related issues. I don't believe that is too strong a word. But 
to see this position unfulfilled for 2 full years is just plain 
wrong. I hope we can resolve that and fix it.
    So I will in 1 moment call up the first two witnesses, but 
let me call on the vice chairman for comments.

STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR FROM WYOMING, VICE 
             CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Thomas. Thank you, Mr. Chairman. Certainly I share 
your concern about the vacancy that has been here. It is past 
time to fill it, and I am delighted that we are moving forward. 
I certainly support that.
    I too talked to the Secretary of the Interior and certainly 
have been working to get this going. I certainly want us to 
continue. I extend my greetings to Mr. Artman and appreciate 
him being here for the second time for his nomination. He has a 
varied background in Government and the private sector, which 
is needed to fulfill all the requirements for this position.
    I also extend welcome to our witnesses this morning, Gerald 
Danforth and Jacqueline Johnson. We are glad to have you here.
    So again, I agree with the chairman that this vacancy has 
been there too long. It is very important to have a voice right 
in the secretary's group for the Indian tribes and the Indian 
affairs. So I think we have a chance here, Mr. Chairman, to 
move forward, and I support you and I am very pleased to have 
Mr. Artman be our candidate.
    The Chairman. Senator Thomas, thank you very much.
    Let me call our first two witnesses, Gerald Danforth, 
chairman of the Oneida Tribe in Wisconsin; and also Jacqueline 
Johnson, executive director of the National Congress of 
American Indians here in Washington, DC. Chairman Danforth and 
Ms. Johnson, thank you very much.
    Chairman Danforth, we will hear from you first. Welcome.

  STATEMENT OF GERALD L. DANFORTH, CHAIRMAN, ONEIDA TRIBE OF 
INDIANS OF WISCONSIN, ACCOMPANIED BY WILLIAM GOLLNICK, CHIEF OF 
                             STAFF

    Mr. Danforth. Thank you, Mr. Chairman. Good morning, Vice 
Chairman Thomas, good morning, honorable members of the Senate 
Committee on Indian Affairs.
    I am Gerald Danforth, chairman for the Oneida Tribe of 
Indians of Wisconsin. And I bring along a message from just 
less than 16,000 Oneidas of Wisconsin, expressing their pride 
and offering our support and confidence in this particular 
candidate, Carl Joseph Artman.
    As you just recalled, this past Congress, when this hearing 
was first held to consider Carl, I was not able to attend at 
that time. Our vice chair, Kathy Hughes, represented the Oneida 
Tribe at that particular hearing. But I feel very privileged 
and honored to be here to offer this testimony this morning.
    Mr. Artman is a very bright and extremely hard-working 
individual. He has established a broad array of educational 
achievements and has sought out many, many different diverse 
career opportunities to apply those achievements to. We believe 
that his academic record and his professional experiences more 
than highly qualify him for these responsibilities.
    We know that the job of the assistant secretary is 
demanding. In the best of circumstances, it is a very delicate 
balance of authority and responsibility, and we believe that 
Carl Artman has demonstrated in many different ways his ability 
to fulfill those sort of demanding circumstances to a very 
significant and good resolve.
    I was at the listening session you made reference to, Mr. 
Chairman, this past Saturday. I spoke on behalf of Oneida then 
that we believe that the committee's priorities and the agenda 
that you framed out were right on point and very much in line 
with what ours were at home. In listening to it, I think there 
were probably, I want to say 150 or 160 tribal leaders present 
on that Saturday morning in Minnesota to attend that hearing. 
It was phenomenal.
    So I appreciate your motivation and your desire to 
invigorate this activity throughout Indian country. I think it 
was really appreciated by all who attended. I would like to 
note, too, that during the course of that listening session, 
when you had made reference to this appointment of the 
assistant secretary's position coming forward in an expeditious 
sort of way, the resolve around the room was very much in line 
with what your thoughts were. And I say that because it is not 
just an Oneida thing, it is not just a Carl Artman thing, it is 
about Indian country in general, and it is about the United 
States of America and our Government, and the credibility of 
such.
    I believe you have an excellent candidate to consider. Carl 
has earned a juris doctorate, a masters of law, and a masters 
in business administration. I know that in his pursuit of those 
achievements, he has made a lot of sacrifices to accomplish 
those. As I mentioned previously, I think even more importantly 
are the positions of responsibility that he has sought out to 
apply those talents and skills. I think his experience is going 
to be tested on a regular basis in his new responsibilities 
that I believe he will assume. I think that we will all be 
satisfied by his choice and his selection to fulfill that duty.
    As the committee may recall in its records, different times 
in the past, in 1976 and again in 1989, the committee had heard 
testimony from Oneida on different matters. Reference was made 
to how the Oneida had assisted from the very early stages of 
the United States the framework for establishing, for example, 
some of the terms and principles of our constitution. Some of 
the values and some of the core instruments outlined in the 
Iroquois Confederacy are examples of how our governments, how 
the Iroquois Government and how the U.S. Government have worked 
in very similar ways.
    So I am proud to say that we can recall part of that 
history, and I am proud to say that we have an Oneida member 
here today to be considered for this position. And we believe 
that Carl Joseph Artman will do so in fulfilling those 
responsibilities with honor and distinction. Thank you.
    [Prepared statement of Mr. Danforth appears in appendix.]
    The Chairman. Mr. Chairman, thank you very much. We 
appreciate your coming to Washington to provide testimony about 
a member of your tribe who has been nominated by the President.
    Next we will hear from Jacqueline Johnson, the executive 
director of the National Congress of American Indians. I 
understand that you are here today on behalf of President 
Garcia.

 STATEMENT OF JACQUELINE JOHNSON, EXECUTIVE DIRECTOR, NATIONAL 
                  CONGRESS OF AMERICAN INDIANS

    Ms. Johnson. Yes; President Garcia would have loved to have 
been here, but they are having ceremonies and he is unable to 
leave the Pueblo until Sunday. But as always, he extends his 
regards to this committee and to your leadership.
    NCAI is really pleased and proud to be able to be here. It 
is our first time to testify in the 110th Congress. But once 
again, to be able to be here to tell you how much we appreciate 
the bipartisan efforts that are done by this particular 
committee, being a non-profit and a non-partisan organization, 
it is extremely important for us to getting our work done that 
we do our work and move forward in our efforts in such a 
manner. I appreciate both your leadership, Senator Dorgan and 
Senator Thomas.
    In Tulsa last year, a couple of years ago, actually, 
because we have been waiting for this nomination to happen, as 
you noted, Senator Dorgan, since February, 2 years ago, NCAI 
passed a resolution saying we wanted to an expeditious 
appointment of the Assistant Secretary of Indian Affairs, 
because it is a critical role. It is a critical position for 
Indian country. It is the position of a symbol, it is the 
position of where we hold some of our most revered Native 
Americans who have held this position in the past.
    Clearly, it is the symbol that tribes look to that see, 
even though the Secretary of the Department of the Interior has 
the ultimate trust responsibility delegated by Congress to be 
our trustee, but we know that this position is the one that is 
the advocate within the Administration. We see this person as 
being the one who has to champion our causes with the White 
House, who has to represent us when we are dealing with OMB and 
budget cuts, who has to make hard decisions about how those 
budgets reflect the needs of Indian country, who has to address 
the issues that we have with our education, our health care, 
dealing with law enforcement, has to help just organize the 
10,000 staff members of the Bureau of Indian Affairs [BIA], who 
many times provides direct services to tribes or also works 
very hard and diligently to provide the support to tribes for 
self-governance tribes, helping to move forward the energy and 
the effort of Indian country.
    Although we appreciate Jim Cason's efforts in fulfilling 
that position in the last two years, he does not have the 
blessing of Congress. He does not hold that position as having 
his name nominated by the White House. He is not this 
particular President's nominee at the time.
    And it is very important for us that this particular 
position gets moving forward and we appreciate your efforts to 
do so. We find that it is a shame that it has been 2 years, 
that the one position that we all revere from Indian country 
has not moved forward.
    Particularly, Carl Artman has met the task of having, you 
heard Gerald Danforth's testimony, and he has gone on and on 
about the qualifications and the skills that Carl holds to be 
able to hold this position. NCAI looks forward to working with 
someone with such special skills, abilities and knowledge, to 
be able to work with and to be able to make those kinds of 
decisions.
    We know that as a primary advocate within the organization, 
that he will have the responsibility of having to make critical 
decisions that are sometimes very controversial. Those 
decisions many times have been held at bay and decisions have 
not been made. We know that when someone is sitting in an 
acting position, we are all waiting for the time when the real 
person will come in and set the direction as far as 
reorganization.
    So we look forward to your moving forward the nomination, 
to be able to move those issues forward, so that some of those 
decisions that have been held far too long can move forward.
    But the most important thing that I think that this 
position carries is the symbolism and the responsibility of 
government to government relationships, the responsibility of 
consultation, the one that I know that you hold and revere, the 
reason why you went out and have said that you wanted to go 
forward and have these consultations around Indian country, to 
be able to hear from tribal leadership.
    This is a position that holds that responsibility. One of 
the main features of his position is to consult with tribes and 
with Indian country, to be able to bring in the input, the 
recommendations to help us move forward, the vision. So I would 
like to support Chairman Danforth's recommendation. I would 
like to support the President's nomination, I would like to 
support you in your efforts to move forward this name, Carl 
Artman, for the Senate to confirm, and with all of Indian 
country, we stand forward in wanting to have an Indian at the 
helm of the BIA. We want to make sure that is a practice that 
we maintain for the future. It is very important for us to know 
that one of our own can lead our direction.
    Thank you very much.
    [Prepared statement of Ms. Johnson appears in appendix.]
    The Chairman. Ms. Johnson, thank you very much. Thanks to 
both of you.
    Let me say that we look forward to working with the 
president of the National Congress and Tribal Chair Danforth. 
Thank you for being here.
    Let me just ask one question. We have been joined by other 
colleagues, then we will hear from Mr. Artman.
    As I indicated last year, the Congress, this committee, I 
should say, passed out the nomination unanimously, I believe, 
to the floor of the Senate. There was an anonymous hold placed 
on the nomination. Do either of you have any knowledge of why 
an anonymous hold would be placed on this nomination? Is there 
anything about the nomination that you think would justify 
somebody trying to hold it up?
    Mr. Danforth. None whatsoever that I am aware of.
    Ms. Johnson. I do know that there was the hold placed on 
the nomination. I personally talked to some of the folks who 
may have been responsible for the hold with the Republican 
Steering Committee. And there was concern about the nomination, 
the Oneida Nation's, his position he held with gaming. It was a 
time when the Republican Steering Committee was placing a hold 
on all Indian bills for further review, particularly those that 
were moving forward under UC, felt that they didn't get the 
proper review.
    We at NCAI wanted to express, went to that meeting, I 
personally went to that meeting to express my concern that even 
though the President could have a recess appointment, that that 
wasn't the message that we wanted to have. We felt very clearly 
that this position is significant enough to Indian country. It 
is critical enough to our relationships with the Federal 
Government that it needed to have the confirmation and support 
of the members of Congress. That was our message that we gave 
forward.
    The Chairman. Well, obviously I am asking more about the 
intrigue of the U.S. Senate. So it is a question that we will 
perhaps better ask inside this institution, but I wanted just 
to get your sense from outside about what you have heard on 
this.
    We have been joined by a former chairman of this committee 
for many years, Senator Inouye. We have a former chairman, 
Senator McCain, still on the committee, and a vice chairman, 
Senator Thomas. My hope would be that we can move the 
nomination today and I will hope to put together something from 
Senator Thomas, myself, Senator McCain, Senator Inouye, the 
current leadership of the committee and the former chairman of 
the committee to see if we can't move this very quickly.
    After 2 years, at long, long last, this position should be 
filled. It should have been filled a long time ago. But we are 
going to work very hard to get that done.
    Senator Thomas.
    Senator Thomas. I don't have any questions. Thank you both 
for being here, and I am enthusiastic about moving forward as 
anyone can be. So we will try and do it. Thank you.
    The Chairman. Senator Tester.
    Senator Tester. No questions.
    The Chairman. Senator Inouye.
    Senator Inouye. I am ready to vote.
    The Chairman. Senator Inouye is ready to vote. [Laughter.]
    First we have to hear from Mr. Artman. But we will then 
vote. Let me say, Senator Inouye, as you recall, last fall, 
last September, we had heard from Mr. Artman and he comes again 
today. Let me thank the two witnesses for being with us, again. 
Chairman Danforth, thank you for traveling to Washington to 
represent your tribe. We appreciate the testimony of both of 
you.
    Now I would like to call forward Mr. Artman. Carl J. Artman 
is the President's nominee to be the Assistant Secretary of 
Indian Affairs in the Department of the Interior.
    Mr. Artman, as I indicated, has previously appeared before 
this committee. At that point I believe your family was with 
you, Mr. Artman. I don't believe they are with you today, but 
you may correct me. Mr. Artman offered a statement to this 
committee, this committee evaluated his qualifications and 
credentials at that point and I believe unanimously approved 
this nomination. Then it was subject to a hold and never came 
to a vote in the United States Senate. To the extent that we 
can, we intend to correct that.
    But as a formal matter, we wish to hear from you again and 
be able to ask you a few questions, Mr. Artman. Why don't you 
proceed? Welcome to the committee. If you do have family 
present, please feel free to introduce them.

STATEMENT OF CARL J. ARTMAN, NOMINEE TO BE ASSISTANT SECRETARY, 
               INDIAN AFFAIRS, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Artman. Thank you, Mr. Chairman and Mr. Vice Chairman, 
for holding this hearing today, and thank you, Senator Inouye 
and Senator Tester, for being here as well.
    Mr. Chairman, I do not have family here today, though my 
son did want to come. But I am finding as he is in 
kindergarten, he is starting to find any excuse he can to get 
out of school. But we left him there today. [Laughter.]
    Mr. Chairman, Mr. Vice Chairman, and Senators, my name is 
Carl Artman. It is a privilege and an honor to appear before 
you this morning seeking your confirmation of my nomination by 
President Bush to be the Assistant Secretary for Indian 
Affairs.
    I am a member of the Oneida Tribe of Indians of Wisconsin, 
one of the six Nations of the Haudenosaunee, or the Iroquois 
Confederacy. I have served my tribe in various positions, 
ranging from the tribal representative in Washington, DC to 
chief operating officer of a telecommunications partnership to 
chief counsel of the tribe's legal office. I am currently the 
Associate Solicitor for Indian Affairs in the Office of the 
Solicitor at the Department of the Interior.
    I am honored to have been nominated by President Bush, and 
look forward to the opportunities that lie ahead. Secretary 
Kempthorne and I have had numerous conversations about Native 
American matters. I share Secretary Kempthorne's views on 
education, economic development, substance abuse and other 
matters relevant and important to tribal governments.
    I look forward to sharing the Secretary's vision for the 
relationship between the Department of the Interior and Indian 
country and encouraging a conversation about that relationship. 
The Secretary has expressed his confidence in me to bring what 
he has described as an ambassadorial nature to the position of 
Assistant Secretary.
    Indian country provides an overwhelming number of 
challenges, ranging from substance abuse, high unemployment 
rates, crumbling infrastructure. Then there are the issues that 
are unique to Indian country, such as the retention of 
sovereignty, maintaining and expanding self-governance and 
self-determination.
    If you were to ask me why I want this job, my answer would 
be that I am drawn to respond to those seemingly insurmountable 
obstacles for Indians and Alaska Natives. However, I see the 
determination and the potential of Indians and Alaska Natives. 
Reservation populations are growing. Leaders are digging in to 
stem the spread of substance abuse and the lawlessness that 
follows in its wake. Teachers at tribal schools provide more 
with less and inch by inch, tribes are reclaiming their land 
and the inherent rights of that ownership.
    As Indians and Alaska Native reclaim rights lost through 
history, societal plagues, the Department of the Interior must 
be their partner in these battles. I will contribute to a more 
accessible and expeditious Bureau of Indian Affairs [BIA] and 
Bureau of Indian Education to assist tribal communities to 
develop their natural, political and socio-economic 
infrastructures.
    A primary goal of mine will be the measurable engagement in 
the battle to eradicate methamphetamine abuse from reservations 
and tribal communities. I will focus on three areas, meant to 
work in concert to be the beginning of the end of that cancer. 
First, I want to bolster the power of the BIA's Office of 
Justice Services to offer assistance in the form of money, 
manpower, technology, and education to the tribes that need the 
most assistance.
    Second, I want to ensure that the good work that has 
already begun at the Bureau of Indian Education continues. A 
reorganized regional structure and a focus on the foundational 
needs of the students will result in an excellent education for 
the students that are enrolled in the second largest school 
system in the Nation.
    And third, I will focus on economic development in Indian 
country. The Department's Office of Economic and Energy 
Development will become both a resource and a thought leader in 
economic development in Indian country.
    I will continue the discussion about methamphetamine abuse 
that was started by the Secretary with the leaders of all 
facets of the broader tribal community. I will listen for where 
the Department and the Federal Government may help tribes and 
their members gain traction in this fight.
    The Department of the Interior can and will be a positive 
force in Indian country. And if confirmed, I will lay the 
foundation for an era that will provide new commitments through 
action to programmatic goals and mandated duties. If confirmed, 
I will foster an interaction borne of partnership and mutual 
goals, not just fiduciary requirements.
    And if confirmed, I will use the Office of Assistant 
Secretary for Indian Affairs to promote communications between 
tribes that have realized financial success and those that 
strive for a fraction of that success to move beyond mere 
subsistence benefits for their membership. The success of one 
tribe, either in business, government administration or 
cultural preservation, is the best incubator for the success of 
other tribes.
    I will use the office to promote more vibrant and goal-
oriented communications between tribes and their neighbors. I 
hope to foster the growth of tribal governments. Tribal 
sovereignty is inherent, and this sovereignty is best exhibited 
in a vibrant tribal government that understands the judicious 
exercise of its jurisdiction for the benefits of its members 
and the seventh generation.
    Tribal governments embody the power of sovereignty. It 
cares for the present and plans for the future, and is what the 
outside examines to judge the health of that tribe. To lead 
their people and improve the communities, tribal governments 
must be able to fight the obstacles that foster hopelessness. 
If confirmed, I will bring forth the potential of the breadth 
and depth of the Department of the Interior and specifically 
the Office of the Assistant Secretary for Indian Affairs, so 
that Indians and Alaska Natives can use these resources, their 
resources, to conquer the problems bearing down on their 
governments and their people, to gain that foothold that will 
propel them upward and to preserve a culture and build a legacy 
and to provide a future for their seventh generation that is as 
great as their past.
    Thank you for your time, Mr. Chairman, Mr. Vice Chairman, 
and Senators.
    [Prepared statement of Mr. Artman appears in appendix.]
    The Chairman. Mr. Artman, thank you for your statement 
today, and the discussion that we have had previously.
    Let me just ask a couple of questions then call on my 
colleagues. We have had a number of assistant secretaries of 
Indian affairs. Some have been fairly aggressive and have made 
some modest difference in certain areas. Some have left the 
office without having made any apparent changes, or having made 
any difference in what has happened on Indian reservations.
    I did hold a listening session in Minneapolis on Saturday. 
There was a large number of people there. One tribal chair 
stood up and told about his two daughters, reminded me again of 
the third world conditions that exist in some areas, the 
gripping, wrenching poverty, and the challenges that we face. 
He said he has two daughters, one has eight children, one has 
three children. Both live in used trailers that have been 
brought to his reservation from the State of Michigan. I 
believe he said both of them heat their trailers with wood 
stoves, neither trailer has running water and they have outdoor 
toilets.
    If you describe that, people would say, well, that is 
obviously in some other part of the world. But it is here. And 
you see it in too many places.
    So when you start with the issue of education, health care, 
housing, and then all the other issues, you mentioned 
methamphetamine, you could have mentioned alcohol abuse and 
gangs, and so many challenges that these tribal chairs and 
tribal councils face in many ways with limited resources. I 
just think that this position needs to be filled by someone who 
is very aggressive and interested in working on unique and 
aggressive approaches to these things.
    I am going to put together in the middle of this year, some 
time in the summer, a summit on economic development here in 
Washington, DC, to see if we can think of new ways, outside the 
box, to begin dealing with these issues. There is no social 
program quite as important as a good job that pays well for 
people who are able to work. And yet the rampant unemployment 
in circumstances where there are no jobs is something we have 
to confront as well, because that relates to almost all the 
other things I have said.
    The diabetes scourge on the Indian reservations, we have to 
deal with that. Indian Health Service is engaged in health care 
rationing for American Indians. We have so many issues. I spoke 
on the floor the other day and told of a woman having a heart 
attack who was wheeled into a hospital on a gurney with a piece 
of paper taped to her leg that said to the hospital, there is 
no money for contract health services. So understand if you 
admit this woman, you are on your own, hospital.
    It is unbelievable. So that is why I felt so strongly about 
the 2 years that this position has been vacant. I feel so 
strongly about getting your nomination done. But that is just 
the first baby step. The second step is for you to use this 
position to really make a
difference.
    So I guess what I will do is submit a few questions to you, 
but I have done that previously. I would just say this. I am 
comfortable with your nomination. You are well qualified to 
assume this position. I hope you will assume this position, if 
we can move this through the Senate, with great energy and 
dedication and conviction to meet some goals that we can 
establish together that will really make a difference for the 
First Americans.
    Senator Thomas.
    Senator Thomas. Thank you, Mr. Chairman.
    Mr. Artman, we are glad you are here. I look forward to 
supporting the chairman's continued effort on the Senate to get 
this job done.
    Let me ask you a couple of questions. You submitted 
materials to the committee that recused yourself from issues on 
your tribe in Wisconsin. As an associate solicitor, can you 
tell me what issues you recused yourself from?
    Mr. Artman. At the moment, the only issue within the 
solicitor's office that has required my recusal so far has been 
any issue that has dealt with the Iroquois Confederacy's land 
claim in the State of New York. The Oneida Tribe of Indians of 
Wisconsin is part of that land claim and that dates back to 
about 1804. It has been ongoing since. I have not participated 
in any of those discussions or decisions.
    Senator Thomas. So you have recused yourself from gaming 
applications in Wisconsin or New York that would present a 
conflict?
    Mr. Artman. Where it involves Oneida. And in New York, it 
clearly involves Oneida.
    Senator Thomas. Good. I have been particularly and continue 
to be particularly interested in the economic development. I 
think that if the tribes are going to have sovereign nations, 
they have to have a sovereign economy as well, or close to it.
    Do you have any policy recommendations or thoughts that 
would help create non-gaming jobs on the reservations?
    Mr. Artman. I intend to work very closely with the 
Department of the Interior's Office of Indian Economic and 
Energy Development. In its name, it certainly provides hint as 
to one of the outlets for economic development, and that is in 
energy development, where it is possible, on the reservations. 
But not all reservations have that opportunity.
    In speaking with the director of that office, Bob 
Middleton, he and I have discussed several initiatives that we 
can engage in right away to begin the process of thinking about 
economic development and then hopefully eventually putting it 
in place. That includes bringing the tribes together, as I 
mentioned in my opening statement, bringing the tribe that have 
realized financial success in whatever venture they may have 
entered into. For example, the Southern Utes, with their energy 
economic development, they have realized tremendous success. 
And have them be a guide for other tribes that are out there.
    Bring the academic world into this. I know he has already 
started speaking with deans from business schools. I would like 
to see students on reservations looking at the situations and 
giving their ideas, some fresh ideas. And bringing together 
leaders from Indian tribal governments, finance, business, 
business education to begin to look at where other 
opportunities exist.
    Then if you look at any calendar year, there are many, many 
economic development conferences. This year the White House is 
hosting one for Indian economic development. And as Chairman 
Dorgan mentioned, Congress, this committee, will be hosting a 
summit on economic development as well.
    But there are also many private ones out there, or ones 
that are held by tribes. What I would like to do is see if we 
can't coordinate that calendar, on whatever basis, annual 
basis, 18 month basis, so that there is actually a learning 
curve in that, so tribal leaders are going to those, and as 
they go to one and they go to the next one, actually they are 
moving up in the learning process. And by the end of the 
process, hopefully ideas and money are coming together to have 
real economic development within Indian country.
    Senator Thomas. Good. Well, energy development, of course, 
is very important in our area of the country and the 
opportunities are there. I think we just need to make sure the 
tribal members understand that they can benefit from this type 
of economic development.
    As you know, many Senators are concerned about off-
reservation gaming. How strict should the Department be in 
evaluating off-reservation gaming into trust for gaming 
purposes?
    Mr. Artman. Right now, the Secretary of the Interior is 
very concerned about off-reservation gaming. I think he has 
made that clear.
    Right now, a letter is being developed that will be sent to 
the tribes that have applications into the Department of the 
Interior for off-reservation gaming, telling them of the 
Secretary's concerns and noting for them that the Secretary and 
other people within the Department, myself if confirmed, and 
myself as associate solicitor currently, will be looking at 
these issues and trying to figure out a way to better manage 
it, to lay out guidelines, to lay out parameters, both for the 
applicants and the reviewers, and also, importantly, for the 
communities surrounding them, so that everybody can have input 
into the process.
    I imagine, at the end of the review process that the letter 
will refer to, that you are going to see significant changes in 
the section 20 regulations and the 151 regulations, section 20 
dealing with the off-reservation gaming, Section 151 dealing 
with the land into trust. Hopefully these changes will be able 
to give everybody a clear idea of what will be acceptable for 
off-reservation gaming. The Secretary's primary concern is with 
the two-part determination, the section in the Indian Gaming 
Regulatory Act that deals with the potentially far-flung lands. 
And many of the applications that are currently before the 
Department of the Interior are just that, the far-flung lands.
    So he wants to be very careful to ensure that what is being 
considered there does not somehow impact the very basis for 
Indian gaming to begin with.
    Senator Thomas. Thank you very much.
    Mr. Artman. I should note also, Vice Chairman Thomas, that 
I completely support that, and I will be active in the 
development of those regulations and parameters.
    Senator Thomas. We appreciate your efforts. I certainly am 
very enthusiastic about the potential for economic development, 
particularly in the west where the energy potential is there, 
and we simply need to encourage the tribal members to 
understand that they will benefit from that sort of economic 
development.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Tester.
    Senator Tester. First of all, thanks, Carl, for stopping in 
the other day so we could have a visit in the office. I am just 
going to do one question here, and that is, it dove-tails off 
what the chairman talked about in his remarks, and that is the 
aggressiveness of this position and how you have to be 
aggressive to really get things done. Jacqueline Johnson talked 
about outreach to tribes. My question is, how will you reach 
out to tribes so that you can represent their needs in sum, in 
whole?
    Mr. Artman. Thank you, Senator. And thank you for hosting 
me the other day. It was a pleasure meeting you and speaking 
with you.
    In reaching out to the tribe, certainly we can rely on the 
consultation process, which is already in place. The 
consultation process, since the beginning, it is evolving as to 
what exactly that means. If confirmed, during my tenure as 
assistant secretary for Indian Affairs, I would like to reach 
out to tribes and have not just a consultation, but to have a 
conversation, an ongoing conversation about what issues are out 
there affecting them.
    As I have mentioned already to President Garcia and other 
tribal leaders, I would like to sit down with them on a 
relatively regular basis, not to talk about anything specific, 
but let's hear what they feel is going on in Indian country, 
what are their concerns and how does that mesh with the 
Department of the Interior, and likewise, they need to hear 
open conversation from the Department of the Interior on where 
we are going and what we are going to be doing and how we are 
going to be helping them. Or what we may be doing that may 
impact them in other ways, be it these off-reservation gaming 
parameters or perhaps in the area of economic development, oil, 
Indian valuations.
    This way people are not surprised. This way people can 
contribute to the process early on.
    Senator Tester. When you think of outreach, do you 
anticipate the tribes coming to you, or are you going to go to 
them?
    Mr. Artman. Both, Senator Tester. Certainly as Assistant 
Secretary of Indian Affairs, if confirmed, I need to get out to 
Indian country and visit them. I need to visit the tribes and 
see what challenges they are facing or see what they have done 
on their reservations that is worth repeating elsewhere.
    Senator Tester. Thank you.
    The Chairman. Senator Cantwell.

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I am not going 
to ask any questions this morning, in order to save myself and 
the committee time. I am going to submit some individual 
questions. With 27 tribes in the northwest, we have some pretty 
unique issues and interests, everything from the Makah Tribe 
out on our peninsula, to a variety of other issues. So I think 
what I will do is just submit those questions to you.
    Mr. Artman. Thank you, Senator.
    The Chairman. Senator Cantwell, thank you very much.
    Let me just make one final comment. Senator McCain and I 
last year were made aware that 18 years after the law was 
enacted putting into place the off-reservation gaming issue, 
and the process by which applications are made and so on, 18 
years later, there are no regulations in place. We asked Mr. 
Skibine from the Department to tell us why this is the case, he 
said they are being developed.
    Would you check on that and find out for us, is there at 
long, long last a plan to get some regulations in place to deal 
with this issue of off-reservation gaming applications?
    Mr. Artman. If I may, Mr. Chairman, today actually is the 
close of the comment period for the section 20 regulations. The 
comments will be reviewed, we have received many comments. In 
speaking with Mr. Skibine yesterday, he hopes that these 
regulations will be published this spring.
    The Chairman. Mr. Artman, thank you very much. I want to 
thank the witnesses today.
    Mr. Artman, I appreciate your being here and your being 
willing to serve our country.
    I now move the committee to a business meeting to consider 
Mr. Artman's nomination.
    [Whereupon, at 10:05, the committee proceeded to other 
business.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


   Prepared Statement of Carl J. Artman, Nominee for the Position of 
   Assistant Secretary for Indian Affairs, Department of the Interior

    Mr. Chairman, Mr. Vice Chairman, Senators, my name is Carl Artman. 
It is a privilege and an honor to appear before you this morning 
seeking your confirmation of my nomination by President Bush to be the 
Assistant Secretary for Indian Affairs.
    I am a member of the Oneida Tribe of Indians of Wisconsin, one of 
six Indian nations of the Haudenosaunee, or Iroquois Confederacy. I 
have served my tribe in positions ranging from the tribal 
representative in Washington, DC to Chief Operating Officer in a 
telecommunications partnership, to, most recently, Chief Counsel of the 
tribe. I currently serve as the Associate Solicitor for Indian Affairs 
in the Office of the Solicitor within the Department of the Interior.
    I am honored to have been nominated by President Bush and look 
forward to the opportunities that lie ahead.
    Secretary Kempthorne and I have had numerous conversations about 
Native American matters. I share Secretary Kempthorne's views on 
education, economic development, substance abuse, and other matters 
important to tribal governments. I look forward to sharing the 
Secretary's vision for the relationship between the Department of the 
Interior and Indian country, and in encouraging a conversation about 
that relationship. The Secretary has expressed his confidence in me to 
bring what he has described as an ambassadorial nature to the position 
of assistant secretary.
    Indian country provides an overwhelming number of challenges: 
Substance abuse, high unemployment rates on many reservations, lack of 
adequate health care, dilapidated education facilities, crumbling 
infrastructures from roads to irrigation ditches, and crime outpacing 
law enforcement personnel and funds. And then there are the issues 
unique to Indian country such as the retention of sovereignty and 
maintaining and expanding self-governance and self-determination.
    If you were to ask me why I want this job, my answer would be that 
I am drawn to respond to those seemingly insurmountable obstacles for 
Indians and Alaskan Natives. I see the determination and the potential 
of Indians and Alaskan Natives. Reservation populations are growing. 
Leaders are digging in to stem the spread of substance abuse and the 
lawlessness that follows in its wake. Teachers at tribal schools 
provide more with less. Inch by inch tribes are reclaiming their land 
and the inherent rights of such ownership.
    As Indians and Alaskan Natives reclaim rights lost through history 
or societal plagues, the Department of the Interior must be their 
partner in these battles. I will contribute to a more accessible and 
expeditious Bureau of Indian Affairs and Bureau of Indian Education to 
assist tribal and Alaskan Native communities to develop their natural, 
political, and socio-economic infrastructure.
    A primary goal of mine will be measurable engagement in the battle 
to eradicate methamphetamine abuse from reservations and tribal 
communities. I will focus on three areas meant to work in concert to be 
the beginning of the end of this cancer. First, I want to bolster the 
power of the BIA's Office of Justice Services to offer assistance in 
the form of money, manpower, technology, and education to the tribes 
that need the most assistance. Second, I want to ensure the good work 
that has already begun in the Bureau of Indian Education continues. A 
reorganized regional structure and a focus on foundational needs will 
result in an excellent education for the students enrolled in the 
second largest school system in the Nation. And third, I will focus on 
economic development in Indian country. The Department's Office of 
Indian Economic and Energy Development will become both a resource and 
a thought leader in economic development in Indian country. We will 
bring together influential leaders from Indian governments, finance, 
business, and business education to focus on the development of 
sustainable tribal economies.
    I will continue the discussion, started by the Secretary, with 
leaders of all facets of the broader tribal community; and I will 
listen for where the Department and Federal Government may help tribes 
and their members gain traction.
    The Department of the Interior can and will be a positive force in 
Indian country. If confirmed, I will lay the foundation for an era that 
will provide new commitments, through action, to programmatic goals and 
mandated duties.
    If confirmed, I will foster an interaction born of a partnership 
and mutual goals, not just fiduciary requirements.
    If confirmed, I will use the Office of the Assistant Secretary for 
Indian Affairs to promote communications between tribes that have 
realized financial success and those that strive for a fraction of that 
success to move beyond provision of subsistence benefits for their 
membership. The success of one tribe, either in business, government 
administration, or cultural preservation, is the best incubator for 
success of other tribes.
    I will use the office to promote more vibrant and goal-oriented 
communications between tribes and their neighbors.
    I hope to foster the growth of tribal governments. Tribal 
sovereignty is inherent, and this sovereignty is best exhibited in a 
vibrant tribal government that understands judicious exercise of its 
jurisdiction for the benefits of its members and the seventh 
generation. Tribal governments embody the power of sovereignty. It 
cares for the present and plans for the future. It is what the outside 
examines to judge the health of the tribe.
    To lead their people and improve their communities, tribal 
governments must be able to fight the obstacles that foster 
hopelessness. If confirmed, I will bring forth the potential of the 
breadth and depth of the Department of the Interior, and specifically 
the Office of the Assistant Secretary for Indian Affairs, so that 
Indians and Alaskan Natives can use these resources--their resources--
to conquer the problems bearing down on their governments and people, 
to gain that foothold that will propel them upward, to preserve a 
culture and build a legacy, and to provide a future for their seventh 
generation that is as great as their past.
    Mr. Chairman, Mr. Vice Chairman, and Senators, thank you.


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


  Prepared Statement of Gerald L. Danforth, Chairman, Oneida Tribe of 
                          Indians of Wisconsin

    Good morning Chairman Dorgan, Vice Chairman Thomas and honorable 
committee members.
    My name is Gerald Danforth and I am chairman of the Oneida Tribe of 
Indians of Wisconsin. I am extremely honored to be here with you today. 
As you will recall, when Carl Artman first came before this committee 
in the last Congress, other pressing issues precluded my attendance. 
Today I am privileged to bring you greetings from our nearly 16,000 
members who share their pride today as I come forward to express our 
support and confidence in one of our enrolled members, Carl Artman.
    Mr. Artman is a bright and extremely hard-working individual who 
has a broad and distinguished academic background. For such a young 
man, he has a wide arrange of skills and broad diversity of experience 
upon which to draw from in the exercise of his duties as Assistant 
Secretary of the Interior. It brings me great pride to know that voices 
of support for Mr. Artman have come from all comers of Indian country. 
I am encouraged, as are many other tribal leaders throughout Indian 
country as demonstrated at the listening session in Minneapolis this 
past Saturday, that this committee has moved so expeditiously to fill 
this critical position--one that has remained vacant for 2 years. I 
believe that you will be considering an exceptional candidate.
    Carl Artman has earned a Juris Doctorate, an L.L.M. [Master of 
Laws] and a Master of Business Administration Degree. He is familiar 
with the legal and economic forces that demand consideration by this 
office. His experience serving Congressman Oxley and representing our 
nation in Washington provides him with unique preparation and 
familiarity with Capital Hill and Indian country. He comes before you 
with the array of attributes necessary to engage this administration, 
understand the relationship with Congress, and appreciate the unique 
and common issues affecting the Indian nations. I believe Mr. Artman's 
experience thoroughly qualifies him for this position.
    Mr. Chairman, in 1976 and again in 1989 this very committee heard 
testimony regarding the role of our nation in the founding of the 
United States, the incorporation of many of our governmental concepts 
into the American constitution, and our commitment to the Colonies in 
the Revolutionary War . . . commitments that helped found and secure 
America. Our people's long and proud tradition in support of this 
country . . . tradition of government of and by the people . . . 
tradition of leaders as true public servants guides us and certainly 
guides Carl. It is therefore fitting and proper that an Oneida now 
comes forward to hold this high post. We believe that Carl Artman will 
do so with honor and distinction.
                                 ______
                                 

Prepared Statement of Jacqueline Johnson, Executive Director, National 
                      Congress of American Indians

    Chairman Dorgan, Vice Chairman Thomas and distinguished members of 
the Senate Committee on Indian Affairs, on behalf of the National 
Congress of American Indians I want to thank you for the opportunity to 
provide our views on the nomination of Carl Artman to be the next 
Assistant Secretary for Indian Affairs. This is the first time that we 
have testified before the committee in the 110th Congress, and I want 
to reinforce with you how much we appreciate the bipartisan manner in 
which this committee conducts its business. NCAI has always operated as 
a non-partisan organization, and we strongly support this committee's 
tradition of bipartisan cooperation in developing Federal policy for 
American Indian and Alaska Native communities.
    On behalf of the National Congress of American Indians, we urge the 
Senate to move forward on confirmation of Carl Artman to be the 
Assistant Secretary of Indian Affairs. Mr. Artman has the necessary 
experience for this important job, having served as the Associate 
Solicitor for Indian Affairs for the Department of the Interior for the 
past 1 year, and having worked as an attorney in the field of Indian 
affairs for many years. We attach a copy of NCAI Resolution TUL-05-17 
urging confirmation of a nominee with this level of experience and 
expertise.
    We also urge a swift confirmation of the President's appointment 
because this is an extremely important position for Indian tribes and 
Indian people, and the position has been vacant for 2 years. The 
Assistant Secretary leads the Bureau of Indian Affairs [BIA], an agency 
with 10,000 employees and an annual budget of $2.2 billion. The BIA 
provides critical services and infrastructure in law enforcement, 
education, social services, transportation and land, and natural 
resources management; and the Assistant Secretary is the primary 
advocate for these programs and services within the Administration. 
James Cason, the Associate Deputy Secretary has been fulfilling these 
responsibilities on a temporary basis since February 2005. We greatly 
appreciate the work that Mr. Cason has done, but the BIA requires an 
appointee who has the approval of the Senate to provide the leadership 
and direction that it needs.
    The BIA is also at a critical time on policy direction and 
reorganization, and needs the Assistant Secretary to lead these efforts 
in consultation with tribal leadership. For example, law enforcement 
and tribal courts are a top priority of tribal leadership, particularly 
with the growing methamphetamine epidemic that is affecting so many 
reservations. We expect that these areas will see increases in the 
President's budget for fiscal year 2008, and we will need strong 
leadership at the BIA to make sure that these increases are implemented 
effectively. As you know, trust reform and land management have been 
critical issues for many years, a settlement is under discussion, 
reorganization is underway and there is a major effort to revise the 
trust regulations. We need a leader at the BIA to facilitate those 
efforts. I could go on and on with the list of important 
responsibilities--like education and No Child Left Behind--but I don't 
want to alarm Mr. Artman with too long of a list. He will have to 
tackle them one at a time.
    The Assistant Secretary also has an important decisionmaking role 
that affects individual tribes--and many of these decisions have been 
on hold for too long. Construction of schools and roads, allocation of 
police, water rights settlements, approval of leases, et cetera. 
Sometimes these decisions can be controversial, such as some land-to-
trust applications. The Assistant Secretary has to balance competing 
interests and make decisions. Of course we always want the decisions to 
favor Indian tribes, but whether the decision is yes or no, it is 
important to have decisions made so the tribes can move forward with 
their planning and efforts.
    If I have one piece of advice for Mr. Artman, it is to focus on 
government-to-government consultation. The key is to communicate with 
tribes early before decisions are made, have an open mind and talk 
about problems and solutions. You will be amazed at how much tribal 
leaders want to be a part of the solution as long as their concerns are 
respected and included in making the decision. One of the strongest 
powers of the Assistant Secretary is to bring parties together and urge 
them to negotiate solutions. Tribal leaders will listen to you and 
respect you because you are the Assistant Secretary for Indian Affairs.
    That brings me to my final point. It is important to fill the 
position of Assistant Secretary for Indian Affairs because the position 
plays such an important role in the relationship between the Federal 
Government and Indian tribes. Prior to 1977, the Commissioner of Indian 
Affairs was most often a non-Indian administrator and a symbol of 
paternalism. The position of Assistant Secretary was created as part of 
the implementation of the Federal policy of tribal self-determination, 
and ever since that time the position has been held by a talented 
Indian person who was accorded significant respect by tribal leaders. 
The Assistant Secretary elevated the status of the job and put an 
Indian into the position. The importance of this is not lost on tribal 
leaders. Forrest Gerard, Ada Deer, Kevin Gover, Neal McCaleb--these are 
accomplished Indian people that we have looked up to as symbols of our 
ability to take control of our own futures.
    Carl Artman now has the opportunity to join this distinguished 
company and help lead the Federal-tribal relationship into the future. 
Tribal leaders are working to fulfill a vision of transitioning the BIA 
to a system where there is active participation and management by 
tribal governments, while the BIA fulfills its trust responsibility to 
protect Indian lands, oversee regulations and enforcement, and provide 
technical assistance and funding for critical services. We have a 
vision of a partnership where tribes and the BIA manage reservation 
lands for their intended purpose--providing a homeland and economy for 
Indian people. NCAI urges the Senate to consider Mr. Artman's 
nomination as soon as possible so that he can move forward with this 
important work.

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
